No. _____________
In The Supreme Court of the United States

Marlow Shelton McDonald, Petitioner
vs.
Jeff Titus, Warden Rush City Correctional Facility, Minnesota, Respondent.

INDEX TO APPENDIX

Appendix A: Eighth Circuit Court of Appeals Judgment Denying Application for
Certificate of Appealability
Appendix B: Order of the District Court Adopting Report and Recommendation
Appendix C: Report and Recommendation of the Magistrate Judge
Appendix D: McDonald v. State, A18-0064 (July 30, 2018)
Appendix E: Order of Minnesota Supreme Court denying petition for review
Appendix F: Text of 28 U.S.C. § 2254

Appendix A

Appendix B

CASE 0:18-cv-03099-PJS-TNL Document 19 Filed 11/06/19 Page 1 of 17

UNITED STATES DISTRICT COURT
DISTRICT OF MINNESOTA
MARLOW SHELTON MCDONALD,

Case No. 18‐CV‐3099 (PJS/TNL)

Petitioner,
v.

ORDER

JEFF TITUS, Warden, Rush City
Correctional Facility, Minnesota
Respondent.
Zachary A. Longsdorf, LONGSDORF LAW FIRM, PLC, for petitioner.
Susan B. Devos, BLUE EARTH COUNTY ATTORNEY’S OFFICE; and
Matthew Frank, MINNESOTA ATTORNEY GENERAL’S OFFICE, for
respondent.
Petitioner Marlow Shelton McDonald was convicted by a jury in state court for
committing a first‐degree drug offense, a second‐degree drug offense, a third‐degree
drug offense, two firearm offenses, and the offense of fleeing from a peace officer. State
v. McDonald, No. A15‐0268, 2016 WL 596222, at *1 (Minn. Ct. App. Feb. 16, 2016). After
the jury found that McDonald had five or more prior felony convictions and that his
crimes were committed as part of a pattern of criminal conduct, the state court
sentenced McDonald to consecutive sentences of 316 months for the first‐degree drug
offense and 12 months and 1 day for fleeing a peace officer (and to concurrent sentences
for the other offenses). Id. at *1‐2. His convictions and sentences were affirmed on
direct appeal. Id. at *9‐10; ECF No. 11‐8.

CASE 0:18-cv-03099-PJS-TNL Document 19 Filed 11/06/19 Page 2 of 17

After McDonald’s direct appeal concluded, the Minnesota Drug Sentencing
Reform Act (“DSRA”) took effect. 2016 Minn. Laws ch. 160. The DSRA increased the
weight thresholds for first‐degree drug offenses and generally reduced the sentencing
guidelines for drug offenses. The Minnesota Supreme Court held that the increased
weight thresholds applied only to crimes committed after the effective date of the
DSRA, State v. Otto, 899 N.W.2d 501 (Minn. 2017), but that the reduced sentencing
guidelines applied to convictions that were not final on the DSRA’s effective date, State
v. Kirby, 899 N.W.2d 485 (Minn. 2017).
In July 2017, McDonald filed a petition for postconviction relief in state court. See
ECF No. 11‐9 at 6. The state trial court granted his petition to the extent that he sought
resentencing on his first‐degree drug offense under the reduced guidelines, but denied
his petition in all other respects. ECF No. 11‐9 at 35‐45. The state trial court resentenced
McDonald to 250 months on the first‐degree drug offense. ECF No. 11‐9 at 45. The
Minnesota Court of Appeals affirmed the trial court’s decision, McDonald v. State,
No. A18‐0064, 2018 WL 3614669 (Minn. Ct. App. July 30, 2018), and the Minnesota
Supreme Court denied review, McDonald v. State, No. A18‐0064, Order (Minn. Oct. 24,
2018).
McDonald then filed a petition for a writ of habeas corpus under 28 U.S.C.
§ 2254, alleging six grounds for relief. ECF No. 1. In a report and recommendation

‐2‐

CASE 0:18-cv-03099-PJS-TNL Document 19 Filed 11/06/19 Page 3 of 17

(“R&R”), Magistrate Judge Tony N. Leung recommended denying McDonald’s petition
and dismissing with prejudice all of his claims. ECF No. 17. Judge Leung concluded
that five of McDonald’s claims were procedurally barred and that his sixth claim—an
equal‐protection challenge to his resentencing—was meritless.
This matter is before the Court on McDonald’s objection to the R&R. The Court
has conducted a de novo review. See 28 U.S.C. § 636(b)(1); Fed. R. Civ. P. 72(b). Based
on that review, the Court overrules McDonald’s objection and adopts the R&R.1
I. PROCEDURAL DEFAULT
In his § 2254 petition, McDonald claims that (1) his right to equal protection was
violated when the state trial court (a) refused to apply the DSRA’s increased weight
thresholds to his case and (b) resentenced him under a sentencing scheme that
discriminates on the basis of race;2 (2) his Sixth Amendment right to present a complete
defense was violated when the trial court ruled that all of his past convictions would be
admissible to impeach him if he testified at trial; (3) his right to due process was
violated when the prosecutor engaged in misconduct during the “Blakely portion” of his

1

In his R&R, Judge Leung thoroughly described McDonald’s state‐court
proceedings. The Court will not recount those proceedings again.
2

McDonald also claims that these decisions violated his right to due process, but
McDonald’s arguments relate solely to the Equal Protection Clause, and he does not
make any distinct arguments under the Due Process Clause. Like Judge Leung, this
Court will assume that McDonald’s due‐process arguments are identical to his equal‐
protection arguments. ECF No. 17 at 15.
‐3‐

CASE 0:18-cv-03099-PJS-TNL Document 19 Filed 11/06/19 Page 4 of 17

sentencing proceeding; (4) his right to a speedy trial was violated; (5) his right to due
process was violated when the State engaged in sentencing manipulation; and (6) his
Sixth Amendment right to effective assistance of counsel was violated. See ECF No. 1.
A. Failure to Exhaust and Procedural Default
“Before seeking a federal writ of habeas corpus, a state prisoner must exhaust
available state remedies, thereby giving the State the opportunity to pass upon and
correct alleged violations of its prisoners’ federal rights. To provide the State with the
necessary opportunity, the prisoner must fairly present his claim in each appropriate
state court (including a state supreme court with powers of discretionary review),
thereby alerting that court to the federal nature of the claim.” Baldwin v. Reese, 541 U.S.
27, 29 (2004) (cleaned up). A federal claim is “fairly presented” if the petitioner refers to
“‘a specific federal constitutional right, a particular constitutional provision, a federal
constitutional case, or a state case raising a pertinent federal constitutional issue’ in a
claim before the state courts.” McCall v. Benson, 114 F.3d 754, 757 (8th Cir. 1997)
(quoting Myre v. Iowa, 53 F.3d 199, 200‐01 (8th Cir. 1995)).
When a claim is not exhausted because it has not been fairly presented to the
state courts, that claim will be found procedurally defaulted—i.e., the petitioner will be
barred from pursuing that claim in a § 2254 proceeding—if the state courts would not
“accord the petitioner a hearing on the merits” of that claim because the petitioner has

‐4‐

CASE 0:18-cv-03099-PJS-TNL Document 19 Filed 11/06/19 Page 5 of 17

not “complied with state procedural rules governing post‐conviction proceedings.”
McCall, 114 F.3d at 757. “If state procedural rules prevent the petitioner from obtaining
such a hearing, then the petitioner is also procedurally barred from obtaining habeas
relief in a federal court unless he can demonstrate either cause and actual prejudice, or
that a miscarriage of justice will occur if [the court does] not review the merits of the
petition.” Id.
1. Speedy‐Trial and Sentencing‐Manipulation Claims
McDonald objects to Judge Leung’s conclusion that McDonald’s speedy‐trial and
sentencing‐manipulation claims are unexhausted and procedurally defaulted.
On direct appeal, McDonald was represented by counsel, but the Minnesota
Court of Appeals allowed McDonald to file a supplemental pro se brief. In that pro se
brief, McDonald raised his speedy‐trial and sentencing‐manipulation claims. ECF
No. 13‐1 at 10‐14, 15‐21. The Minnesota Court of Appeals rejected those claims on the
merits. McDonald, 2016 WL 596222, at *7‐9.
Through counsel, McDonald then filed a petition for review with the Minnesota
Supreme Court. ECF No. 11‐6. As required by Minn. R. Civ. App. P. 117, subd. 3(a),
McDonald included “a statement of the legal issues sought to be reviewed” and
described “the disposition of those issues by the Court of Appeals.” See ECF No. 11‐6
at 3‐4. In identifying the issues that he wanted the Minnesota Supreme Court to review,

‐5‐

CASE 0:18-cv-03099-PJS-TNL Document 19 Filed 11/06/19 Page 6 of 17

McDonald did not include either his speedy‐trial claim or his sentencing‐manipulation
claim, nor did he describe how the Minnesota Court of Appeals had disposed of those
claims. The only mention of those claims was made in a one‐sentence footnote, in
which McDonald’s attorneys noted that, before the Court of Appeals, McDonald had
“challenged the violation of his right to a speedy trial and alleged sentencing
manipulation” in a “Pro Se Supplemental Brief.” ECF No. 11‐6 at 3 n.1.
The Court agrees with Judge Leung that McDonald did not exhaust his speedy‐
trial and sentencing‐manipulation claims because he did not fairly present them to the
Minnesota Supreme Court. McDonald’s claims are nowhere to be found in his list of
issues for review. McDonald’s petition also did not describe how the Minnesota Court
of Appeals had disposed of those claims, nor discuss how the Minnesota Court of
Appeals had erred, nor describe why the issues merited review by the Minnesota
Supreme Court. The only mention of the issues was in a cursory footnote, which
pointed out that McDonald had filed a pro se brief raising these issues in the Court of
Appeals. Nothing in McDonald’s petition alerted the Minnesota Supreme Court that
McDonald was asking it to review these issues.
The Court also agrees with Judge Leung that McDonald’s speedy‐trial and
sentencing‐manipulation claims are procedurally defaulted under State v. Knaffla, 243
N.W.2d 737 (Minn. 1976). According to Knaffla, after “direct appeal has once been

‐6‐

CASE 0:18-cv-03099-PJS-TNL Document 19 Filed 11/06/19 Page 7 of 17

taken, all matters raised therein, and all claims known but not raised, will not be
considered upon a subsequent petition for postconviction relief.” Id. at 741. The Knaffla
rule is well known to judges and attorneys in Minnesota, has been “consistently
followed” for decades, and serves as an adequate and independent state‐law basis for
procedural default. Murray v. Hvass, 269 F.3d 896, 899‐900 (8th Cir. 2001).
In sum, McDonald did not fairly present his speedy‐trial and sentencing‐
manipulation claims to the Minnesota Supreme Court, and he cannot now present those
claims to any Minnesota court because of Knaffla. See, e.g., Murphy v. King, 652 F.3d 845,
848‐51 (8th Cir. 2011) (holding that a habeas petitioner was procedurally barred from
raising a claim that he had failed to fairly present to the Minnesota Supreme Court).3
McDonald’s speedy‐trial and sentencing‐manipulation claims are therefore
procedurally defaulted in this § 2254 proceeding.

3

McDonald attempted to raise his sentencing‐manipulation claim during his state
postconviction proceedings, but the trial court (unsurprisingly) found that the claim
was barred by Knaffla. See McDonald, 2018 WL 3614669, at *2. The Minnesota Court of
Appeals held that McDonald’s appeal of the trial court’s ruling on the sentencing‐
manipulation claim was untimely, id., and McDonald did not present the claim to the
Minnesota Supreme Court, ECF No. 11‐12 at 1‐2. This Court does not doubt, however,
that if they had ruled on the issue, the Minnesota Court of Appeals and the Minnesota
Supreme Court would have agreed with the trial court that McDonald’s sentencing‐
manipulation claim was barred by Knaffla.
‐7‐

CASE 0:18-cv-03099-PJS-TNL Document 19 Filed 11/06/19 Page 8 of 17

2. Complete‐Defense and Prosecutorial‐Misconduct Claims
McDonald objects to Judge Leung’s conclusion that McDonald’s complete‐
defense and prosecutorial‐misconduct claims are unexhausted and procedurally
defaulted. McDonald’s complete‐defense claim is his argument that his Sixth
Amendment right to present a complete defense was violated when the trial court ruled
that, if McDonald testified, all of his prior convictions would be admitted to impeach
him. McDonald’s prosecutorial‐misconduct claim is his argument that, during the
Blakely portion of his sentencing proceeding, the prosecutor violated the Due Process
Clause by improperly referring to a number of dismissed charges in front of the jury.
On direct appeal, McDonald argued in his petition for review to the Minnesota
Supreme Court that the trial court erred when it ruled that all of McDonald’s past
convictions could be used to impeach him and when it allowed the prosecutor to refer
to the dismissed charges during sentencing. But nowhere in the petition for review did
McDonald alert the Minnesota Supreme Court to the federal nature of these claims by
referring to “‘a specific federal constitutional right, a particular constitutional provision,
a federal constitutional case, or a state case raising a pertinent federal constitutional
issue.’” McCall, 114 F.3d at 757 (quoting Myre, 53 F.3d at 200‐01). To the contrary,
McDonald’s petition for review focused exclusively on alleged errors of state law.

‐8‐

CASE 0:18-cv-03099-PJS-TNL Document 19 Filed 11/06/19 Page 9 of 17

Consequently, McDonald did not meet his burden of fairly presenting the substance of
his federal claims to the Minnesota Supreme Court.4
Both of these claims are also procedurally barred under Knaffla, as the claims
were raised on direct appeal to the Minnesota Court of Appeals (and therefore
“known”), but were not raised in the petition for review to the Minnesota Supreme
Court, and thus the claims “will not be considered upon a subsequent petition for
postconviction relief.” 243 N.W.2d at 741. McDonald’s complete‐defense and
prosecutorial‐misconduct claims are therefore procedurally defaulted in this § 2254
proceeding.
3. Ineffective‐Assistance Claim
In his state postconviction proceeding, McDonald claimed for the first time that
he did not receive the effective assistance of counsel at trial. This claim was not

4

McDonald did make the federal nature of his claims clear to the Minnesota
Court of Appeals, which, by affirming McDonald’s conviction, necessarily rejected his
arguments. And McDonald’s petition for review to the Minnesota Supreme Court
obviously discussed the opinion of the Minnesota Court of Appeals. But this was not
sufficient to “fairly present” McDonald’s federal claims to the Minnesota Supreme
Court. “[O]rdinarily a state prisoner does not ‘fairly present’ a claim to a state court if
that court must read beyond a petition or a brief (or a similar document) that does not
alert it to the presence of a federal claim in order to find material, such as a lower court
opinion in the case, that does so.” Baldwin v. Reese, 541 U.S. 27, 32 (2004). To exhaust a
federal claim, a petitioner must present the claim “within the four corners of his
appellate briefing.” Castillo v. McFadden, 399 F.3d 993, 1000 (9th Cir. 2005). Here,
McDonald did not make the federal nature of his claims apparent within the “four
corners” of his petition for review to the Minnesota Supreme Court.
‐9‐

CASE 0:18-cv-03099-PJS-TNL Document 19 Filed 11/06/19 Page 10 of 17

presented to the Minnesota Court of Appeals or the Minnesota Supreme Court on direct
appeal, even though the claim is based on facts that are contained in the trial record and
that were known to McDonald at the time that he appealed his convictions and
sentences. Thus the claim was not exhausted.
Moreover, an ineffective‐assistance claim that is based on facts known to the
defendant at the time of direct appeal is barred by Knaffla if it is not raised on direct
appeal. Reed v. State, 793 N.W.2d 725, 732 (Minn. 2010) (“The Knaffla rule bars a
postconviction ineffective‐assistance‐of‐trial‐counsel claim if the claim is based solely on
the trial record and the claim was known or should have been known on direct
appeal.”). McDonald’s ineffective‐assistance claim is therefore procedurally defaulted
in this § 2254 proceeding.5
5

As noted, McDonald petitioned the state trial court for postconviction relief. In
his state petition, McDonald included a number of claims, including the sentencing‐
manipulation, complete‐defense, and ineffective‐assistance claims that he is pursuing in
this § 2254 proceeding. McDonald, 2018 WL 3614669, at *2. The trial court issued two
orders with respect to McDonald’s claims: First, on August 17, 2017, the trial court
“granted, in part, McDonald’s petition, determining that McDonald was entitled to
resentencing for his first‐degree controlled‐substance crime but denied all other
requested relief on the ground that the claims are Knaffla‐barred.” Id. Second, on
November 14, 2017, the trial court “amended McDonald’s 316‐month sentence to a
250‐month sentence.” Id.
McDonald appealed from both the August 17 and November 14 orders, but the
Minnesota Court of Appeals found that the appeal from the August 17 order was
untimely under Minn. R. Crim. P. 28.02. Id. Therefore, the Court of Appeals addressed
only the issues raised in the November 14 order. Id.
(continued...)
‐10‐

CASE 0:18-cv-03099-PJS-TNL Document 19 Filed 11/06/19 Page 11 of 17

B. Waiver of Procedural Default
The Court has found that all of McDonald’s claims—save for his equal‐protection
claim—are procedurally defaulted. McDonald argues, however, that the Court should
nevertheless reach the merits of his claims because the State waived its procedural‐
default defenses by failing to raise them during these proceedings (except with respect
to the ineffective‐assistance claim, see ECF No. 18 at 7).
McDonald is correct that the State generally forfeits procedural‐default defenses
by not raising them. See Jones v. Norman, 633 F.3d 661, 666 (8th Cir. 2011) (“When a state
fails ‘to advance a procedural default argument, such argument is waived.’” (quoting
Robinson v. Crist, 278 F.3d 862, 865 (8th Cir. 2002))). As with most general rules, though,
there is an exception: A court may raise procedural default sua sponte if (1) the State
did not expressly waive the defense and (2) both parties are afforded fair notice and an
opportunity to be heard on the issue. See 28 U.S.C. § 2254(b)(3) (“A State shall not be
deemed to have waived the exhaustion requirement or be estopped from reliance upon

5

(...continued)
Judge Leung cited McDonald’s failure to bring a timely appeal of the August 17
order as an additional reason why some of McDonald’s claims should be deemed
procedurally defaulted. ECF No. 17 at 9‐10. The Court has determined that those
claims are procedurally defaulted for reasons unrelated to McDonald’s alleged violation
of Rule 28.02. Therefore, the Court need not address Judge Leung’s analysis of
Rule 28.02, nor McDonald’s arguments (1) that a violation of Rule 28.02 cannot be an
independent and adequate state ground for dismissal of a claim and (2) that McDonald
can demonstrate cause and prejudice.
‐11‐

CASE 0:18-cv-03099-PJS-TNL Document 19 Filed 11/06/19 Page 12 of 17

the requirement unless the State, through counsel, expressly waives the requirement.”);
Dansby v. Hobbs, 766 F.3d 809, 824 (8th Cir. 2014) (“A federal court has discretion to
address procedural default in a habeas corpus case despite the State’s failure to present
the issue properly. The Supreme Court has held that before a court may address sua
sponte a different procedural defense—timeliness of a habeas petition—it must give the
parties fair notice and an opportunity to present their positions. The same requirements
of notice and opportunity to be heard should apply when a federal court chooses to
address procedural default on its own initiative.” (citations omitted)); Chavez‐Nelson v.
Walz, No. 17‐CV‐4098 (PJS/SER), 2019 WL 332200, at *1 (D. Minn. Jan. 25, 2019) (“When
a state fails to raise an affirmative defense to a habeas petition (such as failure to
exhaust or procedural default), a court may nevertheless rely on the defense as long as
the state did not expressly waive it.”).
In this case, the State did not expressly waive any defense relating to exhaustion
or procedural default. “‘[T]he plain and ordinary meaning of the term ‘express’ means
directly stated or written, and is meant to distinguish situations where a message is
implied or left to inference.’” Chavez‐Nelson, 2019 WL 332200, at *2 (quoting Grinnell
Mut. Reinsurance Co. v. Villanueva, 798 F.3d 1146, 1148 (8th Cir. 2015)). With respect to
all of McDonald’s claims (except his ineffective‐assistance claim), the State was silent
about the issues of exhaustion and procedural default. The State’s silence plainly does

‐12‐

CASE 0:18-cv-03099-PJS-TNL Document 19 Filed 11/06/19 Page 13 of 17

not constitute an express waiver. See Hampton v. Miller, 927 F.2d 429, 431 (8th Cir. 1991)
(holding that an express waiver exists when the State “unequivocally concedes in
pleadings” that the petitioner exhausted his claims in state court).
In addition, both parties were provided with notice and an opportunity to be
heard on the issues of exhaustion and procedural default. The R&R put McDonald and
the State on notice that the Court might rely on exhaustion and procedural default to
dismiss most of the claims raised in McDonald’s § 2254 petition. And the opportunity
to object to the R&R gave McDonald and the State a reasonable opportunity to be heard
on the matter. See, e.g., Chavez‐Nelson, 2019 WL 332200, at *2 (holding that an R&R
recommending dismissal based on the doctrines of exhaustion and procedural default
provided “notice” to the parties and that the parties’ opportunity to object to the R&R
provided a “full opportunity to be heard”); see also Magouirk v. Phillips, 144 F.3d 348, 359
(5th Cir. 1998) (applying an abuse‐of‐discretion standard to the district court’s sua
sponte application of procedural default and concluding that “the Magistrate Judge’s
Memorandum and Recommendation placed Magouirk on notice that procedural
default was a potentially dispositive issue” and that the petitioner’s opportunity to
object to the R&R provided “a reasonable opportunity to oppose application of the
procedural default doctrine”).

‐13‐

CASE 0:18-cv-03099-PJS-TNL Document 19 Filed 11/06/19 Page 14 of 17

As it has done in the past, see Chavez‐Nelson, 2019 WL 332200, at *2, this Court
will apply the exhaustion and procedural‐default doctrines, notwithstanding the State’s
failure to assert those defenses in its pleadings and briefs. Those defenses are designed
not just to protect the interests of the parties to a particular lawsuit, but “to ensure that
state‐court judgments are accorded the finality and respect necessary to preserve the
integrity of legal proceedings within our system of federalism.” Martinez v. Ryan, 566
U.S. 1, 9 (2012). For the reasons described above, then, the Court holds that all of
McDonald’s claims are procedurally defaulted, save for his equal‐protection challenge
to his resentencing under the DSRA.
II. MERITS
McDonald’s equal‐protection claim consists of two distinct arguments:
McDonald first argues that the State violated the Equal Protection Clause by
punishing him more harshly than similarly situated defendants based solely on when
he committed his offense. McDonald sold approximately 13 grams of
methamphetamine. ECF No. 11‐9 at 28. Prior to the enactment of the DSRA, selling
13 grams of methamphetamine was a first‐degree controlled‐substance offense. After
enactment of the DSRA, selling 13 grams of methamphetamine is a second‐degree
controlled‐substance offense. According to McDonald, providing different

‐14‐

CASE 0:18-cv-03099-PJS-TNL Document 19 Filed 11/06/19 Page 15 of 17

punishments to defendants who commit identical crimes based solely on the timing of
those crimes violates the Equal Protection Clause.
Of course, if McDonald’s argument had merit, neither the federal government
nor any state could ever increase or decrease the punishment for any crime—something
that the federal government and states have routinely done since the founding of the
Republic—because changing the penalties for a crime always results in pre‐change
defendants being treated differently from post‐change defendants based solely on when
they committed their offenses. Fortunately, McDonald’s argument does not have merit.
“The Equal Protection Clause generally requires the government to treat
similarly situated people alike.” Klinger v. Dep’t of Corr., 31 F.3d 727, 731 (8th Cir. 1994).
A corollary to this principle is that “[d]issimilar treatment of dissimilarly situated
persons does not violate equal protection.” Id. A person who sold 13 grams of
methamphetamine before the DSRA was enacted is not similarly situated in all material
respects to a person who sold 13 grams of methamphetamine after the DSRA was
enacted. McDonald decided to sell 13 grams of methamphetamine at a time when such
a sale was classified as a first‐degree controlled‐substance offense and punished
accordingly. Someone who decides to sell 13 grams of methamphetamine today is
doing so at a time when such a sale is classified as a second‐degree controlled‐substance
offense and punished accordingly. The two individuals are making different decisions

‐15‐

CASE 0:18-cv-03099-PJS-TNL Document 19 Filed 11/06/19 Page 16 of 17

to violate different laws carrying different penalties. Thus, the two individuals are not
similarly situated in all material respects. See Moffett v. Collier, No. A‐10‐CA‐676 SS,
2011 WL 2173589, at *4‐5 (W.D. Tex. June 2, 2011) (rejecting the petitioner’s “novel view
of equal protection” under which “all prisoners, regardless of the date each committed
his criminal offense, are ‘similarly situated’”).
McDonald also argues that he was sentenced in violation of the Equal Protection
Clause because African Americans (such as McDonald) make up a disproportionate
share of those arrested, convicted, and imprisoned for drug offenses. The Court
dismisses McDonald’s claim for the reasons explained by Judge Leung.
ORDER
Based on the foregoing, and on all of the files, records, and proceedings herein,
the Court OVERRULES petitioner’s objection [ECF No. 18] and ADOPTS the R&R [ECF
No. 17]. IT IS HEREBY ORDERED THAT:
1.

McDonald’s petition for a writ of habeas corpus under 28 U.S.C. § 2254
[ECF No. 1] is DENIED.

2.

This action is DISMISSED WITH PREJUDICE.

3.

No certificate of appealability will issue.

‐16‐

CASE 0:18-cv-03099-PJS-TNL Document 19 Filed 11/06/19 Page 17 of 17

LET JUDGMENT BE ENTERED ACCORDINGLY.
Dated: November 6, 2019

s/Patrick J. Schiltz
Patrick J. Schiltz
United States District Judge

‐17‐

Appendix C

CASE 0:18-cv-03099-PJS-TNL Document 17 Filed 05/30/19 Page 1 of 20

UNITED STATES DISTRICT COURT
DISTRICT OF MINNESOTA

Marlow Shelton McDonald,

Case No. 18-cv-3099 (PJS/TNL)

Petitioner,
REPORT AND
RECOMMENDATION

v.
Jeff Titus, Warden, Rush City
Correctional Facility, Minnesota
Respondent.

Zachary A. Longsdorf, Longsdorf Law Firm, PLC, 5854 Blackshire Path, Suite 3, Inver
Grove Heights, MN 55076 (for Petitioner); and
Susan B. DeVos, Assistant Blue Earth County Attorney, Blue Earth County Attorney’s
Office, PO Box 3129, Mankato, MN 56002 (for Respondent).

This matter is before the Court, U.S. Magistrate Judge Tony N. Leung, on a Petition
under 28 U.S.C. § 2254 for Writ of Habeas Corpus by a Person in State Custody. (Pet.,
ECF No. 1). This action has been referred to the undersigned magistrate judge for a report
and recommendation to the Honorable Patrick J. Schiltz, United States District Judge for
the District of Minnesota, under 28 U.S.C. § 636 and Local Rule 72.2(b). Based on all the
files, records, and proceedings herein, and for the reasons set forth below, this Court
recommends that the petition be denied and dismissed with prejudice.

CASE 0:18-cv-03099-PJS-TNL Document 17 Filed 05/30/19 Page 2 of 20

I.

PROCEDURAL AND FACTUAL BACKGROUND
A. State District Court
Following a May 2014 arrest, the State of Minnesota charged Petitioner Marlow

McDonald with first-degree and second-degree controlled substance crimes, two counts of
first-degree assault, possession of a firearm by a prohibited person, and qualifying person
in possession of a firearm. State v. McDonald, 2016 WL 596222, at *1 (Minn. App. 2016). 1
Petitioner’s first-degree controlled substance charge was based on allegations that he sold
more than 10 grams of methamphetamine within a 90-day period. Id. Following trial, the
jury found appellate guilty of a first-degree controlled substance crime, a second-degree
controlled substance crime, a third-degree controlled substance crime, possession of a
firearm by a prohibited person, qualifying person in possession of a firearm, and fleeing a
peace officer in a motor vehicle. Id.
The state moved for “an upward departure sentence” based in part on Petitioner’s
“status as a career offender.” Id. At a separate sentencing proceeding, the jury found that
Petitioner had five or more previous felonies and “that his present crimes were committed
as part of a pattern of criminal conduct.” Id. The state trial court sentenced Petitioner to
316 months’ imprisonment for the first-degree controlled substance crimes and to
concurrent sentences of varying lengths for the other offenses. Id. at * 2. The sentence
constituted a double-upward durational departure from the presumptive 158-month
sentence. Minn. Sent. Guidelines 4.A (2013).

1

A copy of this decision can be found at ECF No. 11-5.

2

CASE 0:18-cv-03099-PJS-TNL Document 17 Filed 05/30/19 Page 3 of 20

B. Petitioner’s Direct Appeal
Petitioner, through counsel, appealed to the Minnesota Court of Appeals. He argued
that the state trial court erred by admitting evidence of his previous convictions for
impeachment purposes, that the prosecutor committed misconduct by referencing a number
of dismissed charges against Petitioner in the sentencing portion of his trial, that there was
insufficient evidence for the jury to find that Petitioner committed his offenses as a pattern
of criminal conduct, and that the state trial court abused its discretion in imposing an
aggravated durational departure in its sentence. Id., at *2-*7. Petitioner also filed a pro se
supplemental brief in which he argued that his speedy trial rights were violated, that the
trial judge was biased against him, and that the State engaged in sentencing manipulation.
Id. at *7-*10. The Minnesota Court of Appeals affirmed Petitioner’s convictions and
sentences.
Petitioner then filed a petition for review with the Minnesota Supreme Court. (ECF
No. 11-6). He sought review on four issues: (1) whether the state trial court erred by
admitting Petitioner’s prior convictions for impeachment purposes; (2) whether there was
sufficient evidence to support the jury’s finding that Petitioner was a career criminal; (3)
whether the prosecutor committed misconduct by emphasizing the similarity of prior
dismissed charges to the current offenses; and (4) whether the state trial court abused its
discretion in sentencing Petitioner to a double durational upward departure. The Minnesota
Supreme Court denied review on April 19, 2016. (ECF No. 11-8).

3

CASE 0:18-cv-03099-PJS-TNL Document 17 Filed 05/30/19 Page 4 of 20

C. Petitioner’s Postconviction Petition
Following Petitioner’s conviction and sentencing, the Minnesota Legislature passed
the 2016 Minnesota Drug Sentencing Reform Act (“DSRA”). 2016 Minn. Session
Laws, Chapter 160. Among other things, the DSRA increased the weight necessary for a
person to be convicted for first-degree sale of a controlled substance from 10 grams of
methamphetamine to 17 grams. See id. In addition, the DSRA amended the Minnesota
Sentencing Guidelines to provide new presumptive sentences for persons convicted of
controlled substance crimes. Under the new guidelines, the presumptive sentence for a
first-degree sale of a controlled substance for a person with Petitioner’s criminal history
was 125 months’ imprisonment, with a sentencing range between 107 and 150 months.
Minn. Sent. Guidelines 4.C (2016). The presumptive sentence for a second-degree sale of
a controlled substance crime for a person with Petitioner’s criminal history was 108
months, with a sentencing range between 92 and 129 months. Id.
Petitioner filed a postconviction petition for relief in the Blue Earth District Court,
seeking resentencing under the DSRA. McDonald v. State, 2018 WL 3614669, at *1 (Minn.
App. 2018). 2 Petitioner argued that under the DSRA’s new weight limits, failure to
resentence him for a second-degree sale of a controlled substance would violate his equal
protection and due process rights. Id. at *2. He also claimed that the State engaged in
sentencing manipulation, that he received ineffective assistance of counsel, and that the
state trial court “committed evidentiary errors.” Id. at *2. On August 17, 2017, the

2

A copy of this decision may be found at ECF No. 11-11.

4

CASE 0:18-cv-03099-PJS-TNL Document 17 Filed 05/30/19 Page 5 of 20

postconviction court granted Petitioner’s motion for resentencing on the first-degree
controlled substance offense, but denied relief on all grounds, concluding that Petitioner’s
other claims were barred by the rule announced in State v. Knaffla, 243 N.W.2d 737, 741
(Minn. 1976). Id. On November 14, 2017, the postconviction court amended Petitioner’s
sentence to 250 months’ imprisonment. Id. The amended sentence represented a double
upward durational departure from the presumptive 125-month sentence in place for firstdegree controlled substance crimes following passage of the DSRA. Id. The postconviction
court’s decision was consistent with Minnesota Supreme Court precedent holding that the
new presumptive sentences for controlled substance crimes applied retroactively, but that
the new weight requirements did not. See id. at *2-*3. Accordingly, the postconviction
court concluded that Petitioner was only entitled to be resentenced under the new
guidelines range for a first-degree controlled substance crime. Id.
In January 2018, Petitioner filed a notice of appeal from both the August 17 and
November 14 orders. The Minnesota Court of Appeals questioned whether it had
jurisdiction over any appeal from the August 17 order, noting that the 60-day period
provided for filing a postconviction appeal under Minnesota Rule of Criminal Procedure
28.02 had already expired. McDonald v. State, A18-0064, Order (Minn. App. Jan. 17,
2018). Following additional briefing on the issue, the Minnesota Court of Appeals
concluded that Minnesota Rule of Criminal Procedure 28.02 applied to any appeal taken
from the postconviction court’s August 17 order and that as a result, Petitioner’s appeal
from that order was untimely. Id., Order (Minn. App. Feb. 20, 2018). The Minnesota Court
of Appeals dismissed Petitioner’s appeal from the August 17 order and accepted
5

CASE 0:18-cv-03099-PJS-TNL Document 17 Filed 05/30/19 Page 6 of 20

jurisdiction over his appeal from the November 14 order. Id. Petitioner filed a petition for
review with the Minnesota Supreme Court, which was denied. See McDonald v. State,
A18-0064, Order (Minn. May 15, 2018).
As a result, the Minnesota Court of Appeals considered the merits of only the
following argument in Petitioner’s postconviction appeal:
whether the postconviction court’s refusal to characterize his
first-degree controlled-substance sale conviction as a seconddegree controlled-substance sale conviction based on the
DSRA’s updated weight thresholds violates McDonald's
constitutional right to equal protection because it treats
offenders differently based on the dates of their crimes and
because the pre-DSRA sentencing guidelines disparately
impacted African Americans.
McDonald, 2018 WL 3614669, at *2. The Minnesota Court of Appeals rejected Petitioner’s
argument, concluding that he did not demonstrate how the application of new sentencing
laws created a “racial classification in practice.” Id. at *3.
Petitioner then filed a petition for review with the Minnesota Supreme Court. (ECF
No. 11-12). Again, he sought review on a single legal issue – whether the Minnesota Court
of Appeals “erred in concluding that the reduced quantity thresholds of the Drug
Sentencing Reform Act of 2016 . . . did not apply to [Petitioner’s] case.” (ECF No. 11-12,
p. 1). The Minnesota Supreme Court denied review on October 24, 2018. McDonald v.
State, A18-0064, Order (Minn. Oct. 24, 2018).
D. Federal Habeas Petition
Petitioner now seeks habeas relief on six grounds. (ECF No. 1). First, he argues that
the state trial court’s refusal to resentence him under the DSRA for second-degree sale of

6

CASE 0:18-cv-03099-PJS-TNL Document 17 Filed 05/30/19 Page 7 of 20

a controlled substance violated his due process and equal protection rights. Second, he
argues that the state trial court violated his due process right to present a complete defense
by ruling that “any and all” of Petitioner’s prior convictions would be admissible for
impeachment purposes. Third, he argues that the state violated his due process rights by
engaging in misconduct during the sentencing portion of his trial. Fourth, he argues his
right to a speedy trial was violated. Fifth, he argues that the state violated his due process
rights by engaging in sentence manipulation. Finally, he argues that he received ineffective
assistance of counsel during the sentencing portion of his trial.
On February 4, 2019, the Court ordered Respondent to answer the petition within
30 days. (ECF No. 6). Respondent did not do so. On March 12, 2019, the Court ordered
Respondent to answer on or before March 19, 2019. (ECF No. 7). This time, Respondent
answered, but omitted certain documents required by the Rules Governing Section 2254
Cases in the United States District Courts. (ECF No. 10). The Court ordered Respondent
to provide those documents on or before March 27, 2019 and ordered Petitioner to file a
reply within 30 days of those documents being filed. (ECF No. 10). Because of delays in
locating certain materials, Respondent did not provide a complete set of the requested
documents until April 12, 2019. (ECF Nos. 11, 13, and 14). Petitioner filed his response
on May 13, 2019. (ECF No. 16).
II.

ANALYSIS
The Antiterrorism and Effective Death Penalty Act of 1996 governs a federal court’s

review of habeas corpus petitions filed by state prisoners. Section 2254 is used by state
prisoners alleging they are “in custody in violation of the Constitution or laws or treaties
7

CASE 0:18-cv-03099-PJS-TNL Document 17 Filed 05/30/19 Page 8 of 20

of the United States.” 28 U.S.C. § 2254(a). A federal court may not grant habeas corpus
relief to a state prisoner on any issue decided on the merits by a state court unless the
proceeding “(1) resulted in a decision that was contrary to, or involved an unreasonable
application of, clearly established Federal law, as determined by the Supreme Court of the
United States;” or it “(2) resulted in a decision that was based on an unreasonable
determination of the facts in light of the evidence presented in the State court proceeding.”
28 U.S.C. § 2254(d).
A state prisoner “must exhaust his remedies in state court. In other words, the state
prisoner must give the state courts an opportunity to act on his claims before he presents
those claims to a federal court in a habeas petition.” O’Sullivan v. Boerckel, 526 U.S. 838,
842 (1999); see 28 U.S.C. § 2254(b)(1). “To provide the State with the necessary
‘opportunity,’ the prisoner must ‘fairly present’ his claim in each appropriate state court
(including a state supreme court with powers of discretionary review), thereby alerting that
court to the federal nature of the claim.” Baldwin v. Reese, 541 U.S. 27, 29 (2004) (citation
omitted). “To be fairly presented ‘a petitioner is required to refer to a specific federal
constitutional right, a particular constitutional provision, a federal constitutional case, or a
state case raising a pertinent federal constitutional issue.’” Cox v. Burger, 398 F.3d 1025,
1031 (8th Cir. 2005) (quoting Barrett v. Acevedo, 169 F.3d 1155, 1161-62 (8th Cir. 1999)).
“Presenting a claim that is merely similar to the federal habeas claim is not sufficient to
satisfy the fairly presented requirement.” Id. Additionally, “a state prisoner does not ‘fairly
present’ a claim to a state court if that court must read beyond a petition or a brief (or a

8

CASE 0:18-cv-03099-PJS-TNL Document 17 Filed 05/30/19 Page 9 of 20

similar document) that does not alert it to the presence of a federal claim in order to find
material, such as a lower court opinion in the case, that does so.” Baldwin, 541 U.S. at 32.
Petitioner did not fairly present his speedy trial, sentencing manipulation, and
ineffective assistance claims to the state courts. Petitioner raised his speedy trial claim in a
pro se supplemental brief with the Minnesota Court of Appeals, but did not present this
claim to the Minnesota Supreme Court in a petition for review. See Baldwin, 541 U.S. at
29 (holding that a claim is fairly presented only if raised to a state supreme court with
discretionary powers of review). Likewise, though Petitioner attempted to present his
sentencing manipulation and ineffective assistance of counsel claims to the Minnesota
Court of Appeals, that court rejected his appeal from the postconviction court’s order
denying relief on those claims as untimely. See McDonald v. State, A18-0064, Order
(Minn. App. Feb. 20, 2018). The Minnesota Supreme Court declined to review that
decision.
A “claim has not been fairly presented to the state courts when the state court has
declined to decide the federal claim on the merits because the petitioner violated a state
procedural law.” Hall v. Delo, 41 F.3d 1248, 1250 (8th Cir. 1994); cf. Rivera v. King, No.
10-cv-3954, 2011 WL 4458729, at *6 (D. Minn. Aug. 12, 2011) (finding that a claim in an
unaccepted Pro Se Supplemental Petition for Review to the Minnesota Supreme Court was
unexhausted), report and recommendation adopted by Rivera v. King, 2011 WL 4436149
(D. Minn. Sept. 23, 2011); Blevins v. Dept. of Corr., No. 13-cv-2796, 2014 WL 4966910,
at *11-*12 (D. Minn. Oct. 3, 2014) (same). In this case, the state courts declined to consider
the merits of Petitioner’s sentencing manipulation and ineffective assistance of counsel
9

CASE 0:18-cv-03099-PJS-TNL Document 17 Filed 05/30/19 Page 10 of 20

claims because his appeal on those two claims was untimely under Minnesota Rules of
Criminal Procedure 28.02 Because the state courts relied on state procedural law to dispose
of these two claims, the Court concludes that Petitioner did not fairly present them to the
state courts and that they are unexhausted as a result.
Petitioner also did not fairly present his claims regarding the use of prior convictions
to impeach him and prosecutorial misconduct to the state courts. Though Petitioner raised
each of these claims to the Minnesota Court of Appeals and argued that each error violated
his federal constitutional rights, he did not make the same arguments before the Minnesota
Supreme Court. In his petition for review, regarding his claim of improper impeachment
evidence, Petitioner claimed only that that the state trial court failed to “conduct an “onthe-record evaluation of how the Jones factors applied to each of petitioner’s prior
convictions[.]” (ECF No. 11-6, p. 3). Regarding his prosecutorial misconduct claim,
Petitioner asked that the Minnesota Supreme Court grant review on whether “the
prosecutor improperly invite[d] the jury to find petitioner was a career offender by
emphasizing the similarity between prior dismissed charges and the current offenses where
the State did not present any facts related to the dismissed charges[.]” (ECF No. 11-6, p.
3).
Petitioner did not fairly present these claims to the Minnesota Supreme Court
because he did not “refer to a specific federal constitutional right, a particular constitutional
provision, a federal constitutional case, or a state case raising a pertinent federal
constitutional issue” in his petition for review. Cox, 398 F.3d at 1031. Regarding the use
of prior convictions for impeachment purposes, Petitioner referred only to Jones, a
10

CASE 0:18-cv-03099-PJS-TNL Document 17 Filed 05/30/19 Page 11 of 20

Minnesota Supreme Court case that sets forth factors for determining whether a prior
conviction is admissible under the Minnesota Rules of Evidence. State v. Jones, 271
N.W.2d 534, 538 (Minn. 1978). Petitioner did not refer to any federal law or case
referencing federal law. Likewise, regarding his prosecutorial misconduct claim, Petitioner
“did not mention [in his petition] the Due Process Clause of the Fourteenth Amendment,
any federal cause discussing prosecutorial misconduct, or a state case which discussed the
federal standard of review.” Smith v. Wengler, 08-cv-1113, 2009 WL 6338557, at *6 (D.
Minn. Apr. 27, 2009), report and recommendation adopted by 2010 WL 1427276 (D.
Minn. Apr. 8, 2010) (dismissing prosecutorial misconduct claim as procedurally
defaulted). The Court therefore concludes that these claims are unexhausted.
The fact that Petitioner referenced federal constitutional law in his brief to the
Minnesota Court of Appeals is insufficient to present them to the Minnesota Supreme Court
for review. A claim is not fairly presented if the reviewing court must look beyond the brief
or petition to understand the nature of the claim. See Baldwin, 541 U.S. at 32. In addition,
though Petitioner attached the Minnesota Court of Appeals decision to his petition, nothing
in that decision discusses the constitutional nature of those claims, nor alerts the Minnesota
Supreme Court to the federal nature of his claims.
If a habeas petition contains claims that have not been exhausted in the state courts,
the reviewing court “must then determine whether the petitioner has complied with state
procedural rules governing post-conviction proceedings, i.e., whether a state court would
accord the petitioner a hearing on the merits.” McCall v. Benson, 114 F.3d 754, 757 (8th
Cir. 1997) (citing Harris v. Reed, 489 U.S. 255, 268-70 (1989) (O’Connor, J., concurring)).
11

CASE 0:18-cv-03099-PJS-TNL Document 17 Filed 05/30/19 Page 12 of 20

“A state prisoner procedurally defaults a claim when he violates a state procedural rule that
independently and adequately bars direct review of the claim by the United States Supreme
Court.” Clemons v. Luebbers, 381 F.3d 744, 750 (8th Cir. 2004) (citing Coleman v.
Thompson, 501 U.S. 722, 750 (1991)). Thus, “a state prisoner who fails to satisfy state
procedural requirements forfeits his right to present his federal claim through a federal
habeas corpus petition, unless he can meet strict cause and prejudice or actual innocence
standards.” Id. (citing Murray v. Carrier, 477 U.S. 478, 493-96 (1986)).
For the federal court to enforce a state procedural bar, it must be clear that the state
court would hold the claim procedurally barred. Id. The relevant question then becomes
“whether there is, under the law of [Minnesota], any presently available state procedure for
the determination of the merit of th[ese] claim[s].” Thomas v. Wyrick, 622 F.2d 411, 413
(8th Cir. 1980). In this case, Minnesota law provides that once the petitioner has directly
appealed his sentence “all matters raised therein, and all claims known but not raised, will
not be considered upon a subsequent petition for postconviction relief.” State v. Knaffla,
243 N.W.2d 737, 741 (Minn. 1976); McCall v. Benson, 114 F.3d 754, 757 (8th Cir. 1997).
Likewise, “claims asserted in a second or subsequent postconviction petition are
procedurally barred if they could have been raised . . . in the first postconviction petition.”
Schleicher v. State, 718 N.W.2d 440, 449 (Minn. 2006). “Claims are considered ‘known’
[under the Knaffla rule] if they were available after trial and could have been raised on
direct appeal.” Vann v. Smith, No. 13-cv-893, 2015 WL 520565, at *6 (D. Minn. Feb. 9,
2015) (citing Townsend v. State, 723 N.W.2d 14, 18 (Minn. 2006)).

12

CASE 0:18-cv-03099-PJS-TNL Document 17 Filed 05/30/19 Page 13 of 20

Each of Petitioner’s unexhausted claims is procedurally barred. They were all
known to him following trial or his first postconviction petition for relief. Petitioner
therefore cannot bring them in a subsequent postconviction petition. See Knaffla, 243
N.W.2d at 741; Schleicher, 718 N.W.2d at 449. They are therefore procedurally defaulted.
“Out of respect for finality, comity, and the orderly administration of justice, a
federal court will not entertain a procedurally defaulted constitutional claim in a petition
for habeas corpus absent a showing of cause and prejudice to excuse the default.” Dretke
v. Haley, 541 U.S. 386, 388 (2004). “The cause and prejudice requirement shows due
regard for States’ finality and comity interests while ensuring that ‘fundamental fairness
remains the central concern of the writ of habeas corpus.’” Id. at 393 (quoting Strickland
v. Washington, 466 U.S. 668, 697 (1984)). “This rule is nearly absolute, barring
procedurally-defaulted petitions unless a habeas petitioner can demonstrate cause for the
default and actual prejudice as a result of the alleged violation of federal law, or show
actual innocence.” Reagan v. Norris, 279 F.3d 651, 656 (8th Cir. 2002) (internal citations
and quotation omitted); Martinez v. Ryan, 566 U.S. 1, 9-10 (2012); Coleman, 501 U.S. at
750-51. If a prisoner fails to demonstrate cause, the court need not address prejudice.
Mathenia v. Delo, 99 F.3d 1476, 1481 (8th Cir. 1996).
To obtain review of a defaulted constitutional claim, “the existence of cause for
procedural default must ordinarily turn on whether the prisoner can show that some
objective factor external to the defense impeded counsel’s efforts to comply with the
State’s procedural rule.” Murray v. Carrier, 477 U.S. 478, 488 (1986). “Some examples of
factors external to the defense which prevent a petitioner from developing the factual or
13

CASE 0:18-cv-03099-PJS-TNL Document 17 Filed 05/30/19 Page 14 of 20

legal basis of a claim are interference by the state, ineffective assistance of counsel,
conflicts of interest, and legal novelty.” Mathenia v. Delo, 99 F.3d 1476, 1480-81 (8th Cir.
1996). Ineffective assistance of counsel claims generally must “be presented to the state
courts as an independent claim before it may be used to establish cause for a procedural
default.” Murray, 477 U.S. at 488-89.
Petitioner does not claim cause or prejudice. Nor does he allege actual innocence.
The only claim Petitioner makes to excuse his default is that Minnesota courts do not
strictly and regularly enforce Minnesota Rule of Criminal Procedure 28.02. Accordingly,
Petitioner argues, regarding his ineffective assistance claim, 3 that this Court should not rely
on the Minnesota Court of Appeals’ dismissal of his August 17 postconviction appeal for
lack of jurisdiction as a basis to conclude this claim is procedurally defaulted. In support
of his argument he cites to Pearson v. State, 891 N.W.2d 590 (Minn. 2017). He claims in
that case, the Minnesota Supreme Court did not dismiss an appeal as untimely filed and
instead considered the issues raised in that appeal on the merits. The Court does not find
Petitioner’s argument persuasive.
Petitioner is correct that, for a claim to be procedurally defaulted on the basis of a
state procedural law, the state law must be firmly established, regularly followed, and
readily ascertainable. White v. Bowersox, 206 F.3d 776, 780 (8th Cir. 2000). But a citation
to a single case where the state court did not follow the procedural rule at issue “is
insufficient . . . for purposes of overcoming the procedural bar to a federal habeas petition.”

3

Though Petitioner makes this argument only regarding his ineffective assistance of counsel claim, it would also
apply to his sentencing manipulation claim as well.

14

CASE 0:18-cv-03099-PJS-TNL Document 17 Filed 05/30/19 Page 15 of 20

McPeak v. Sharp, No. 13-cv-6091, 2016 WL 4698541, at *2 (W.D. Ark. Sept. 7, 2016)
(emphasis in original). A procedural rule need not be applied in every case to be adequate,
so long as it is applied “[i]n the vast majority of cases.” Byrd v. Collins, 209 F.3d 486, 521
(6th Cir. 2000) (citing Dugger v. Adams, 489 U.S. 401, 410, n. 6 (1989)). In this district, it
is well established that Minnesota Rule of Criminal Procedure 28.02 is firmly applied in
the majority of cases and that Minnesota state courts regularly enforce this rule. See Don
v. Hammer, No. 16-cv-103, 2017 WL 2623795, at *5 (D. Minn. Mar. 28, 2017), report and
recommendation adopted by 2017 WL 2623822 (D. Minn. June 16, 2017). 4 Petitioner
therefore fails to show sufficient cause to excuse his default.
Accordingly, the Court concludes that five of Petitioner’s claims are procedurally
barred. 5 The Court recommends these claims be dismissed with prejudice. Petitioner has,
however, properly exhausted his claim that the state violated his due process and equal
protection rights by refusing to resentence him under the DSRA. 6 The Court will therefore
consider the merits of this claim.

4

It should also be noted that because the defendant in Pearson had been convicted of first-degree murder, his appeal
was subject to Minnesota Rule of Criminal Procedure 29.02, rather than Rule 28.02. See Pearson, 891 N.W.2d at 59496 (noting conviction for first-degree murder). Though the two rules are virtually identical, the Court cannot assume
they are necessarily applied the same in Minnesota state court.
5
The Court recognizes that because the State did not raise the procedural-default or exhaustion defenses for several
of Petitioner’s claims, Petitioner was not on notice that the Court would rely on those defenses to evaluate his claims.
This Report and Recommendation, however, puts Petitioner on notice of those defenses and, through the objection
process, allows him the opportunity to be heard on those issues. See Chavez-Nelson v. Walz, No. 17-cv-4098, 2019
WL 332200, at *2 (D. Minn. Jan. 25, 2019) (concluding a habeas petitioner is given proper notice when provided the
opportunity to object to a report and recommendation); Jackson v. Symmes, No. 09-cv-2946, 2011 WL 1300930, at
*6 (D. Minn. Jan. 18, 2011) (same), report and recommendation adopted by 2011 WL 1256617 (D. Minn. Apr. 4,
2011).
6
As ground one in his petition, Petitioner contends that “his rights to due process and equal protection . . . were
violated” when the state courts refused to resentence him. His argument, however, relates only to his rights under the
Equal Protection Clause. The Court therefore presumes that Petitioner’s due process challenge is identical to his equal
protection challenge.

15

CASE 0:18-cv-03099-PJS-TNL Document 17 Filed 05/30/19 Page 16 of 20

The federal Equal Protection Clause prohibits States from denying “to any person
within its jurisdiction the equal protection of the laws.” U.S. Const. amend. XIV, § 1. “The
Equal Protection Clause keeps governmental decisionmakers from treating disparately
persons who are in all relevant respects similarly situated.” Bills v. Dahm, 32 F.3d 333, 335
(8th Cir. 1994). Though the Equal Protection Clause protects every person within the
State’s jurisdiction from intentional and arbitrary discrimination, it “does not guarantee”
that all persons will “be dealt with in an identical manner.” Mills v. City of Grand Forks,
614 F.3d 495, 500 (8th Cir. 2010). A law implicates the federal equal protection clause
when it either facially discriminates against a discrete group or there are facts to show it
has a disparate impact on a protected group and is enacted with a discriminatory purpose.
Washington v. Davis, 426 U.S. 229, 238-42 (1976).
Petitioner contends that failure to resentence him for a second-degree controlled
substance offense violates his equal protection rights in two ways. First, he argues that the
statutes and guidelines under which he was sentenced discriminate against individuals on
the basis of race. (ECF No. 1, p. 5) Second, he claims that “he was treated differently than
others in all relevant aspects similarly [situated] based solely on an arbitrary date.” (ECF
No. 1, p. 5). The Court does not find either argument persuasive.
First, regarding the application of the controlled substance statutes and guidelines
under which he was sentenced, Petitioner provides no information to show that those
authorities facially discriminate against a discrete group. Nor does he provide any facts or
information to show those guidelines were enacted with discriminatory purpose. See
Washington, 426 U.S. at 238-42. Petitioner argues only that research shows there is a “13
16

CASE 0:18-cv-03099-PJS-TNL Document 17 Filed 05/30/19 Page 17 of 20

to 1 disparity in imprisonment rates” between African American and white offenders,
despite the fact that each group commits drug offenses at approximately the same rate.
(ECF No. 16, p. 21). Statistical evidence concerning the racially disparate impact of a
sentencing structure does “not indicate a violation of equal protection in the federal
constitutional sense.” United States v. Lattimore, 974 F.2d 971, 974 (8th Cir. 1992).
“[E]ven if a neutral law has a disproportionately adverse impact upon a racial minority, it
is unconstitutional . . . only if that impact can be traced to a discriminatory
purpose.” Personnel Administrator of Mass. v. Feeney, 442 U.S. 256, 272 (1979). Thus,
absent any evidence to show that the State of Minnesota enacted the controlled substance
statutes and sentencing guidelines “because of” their effects on a minority group, Petitioner
cannot show that application of those guidelines was contrary to, or an unreasonable
interpretation of, clearly established federal law. See United States v. Maxwell, 25 F.3d
1389, 1397 (8th Cir. 1994) (citing United States v. Johnson, 12 F.3d 760, 763-64 (8th Cir.
1993). Petitioner’s first argument fails. 7
Second, Petitioner cannot establish that the state trial court’s refusal to resentence
by applying the new weight limits of the DSRA was a violation of his constitutional
rights. “[T]here is absolutely no constitutional authority for the proposition that the
perpetrator of a crime can claim the benefit of a later enacted statute which lessens the

7

Petitioner claims further support for his argument may be found in the Minnesota Supreme Court’s decision in State
v. Russell, 477 N.W.2d 886 (Minn. 1991). There, the Minnesota Supreme Court concluded that discrepancies related
to sentencing for crack and power cocaine offenses violated defendants’ equal protection rights under the state
constitution. Id. at 891. In doing so, the Minnesota Supreme Court noted that, “in equal protection cases, [it] articulated
a rational basis test that differs from the federal standard.” Id. at 888. As a result, nothing in this decision lends any
support to Petitioner’s claim that application of the DSRA to him resulted in an unreasonable application of federal
constitutional law.

17

CASE 0:18-cv-03099-PJS-TNL Document 17 Filed 05/30/19 Page 18 of 20

culpability level of that crime after it was committed.” United States v. Haines, 855 F.2d
199, 200 (5th Cir. 1988). Furthermore, the determination of what version of Minnesota
Sentencing Guidelines or the controlled substance laws is based on the petitioner’s offense
date. See generally Minn. Sent. Guidelines 2 (2013). Because classification based on the
date a petitioner committed an offense does not implicate a fundamental right or a suspect
class, any challenge to the effective date of those laws and guidelines would be subject to
rational basis review. See United States v. Binkholder, 909 F.3d 215, 218-19 (8th Cir. 2018)
(reaching same conclusion regarding an equal protection challenge to federal guidelines).
And the purpose of the controlled substance laws and the Minnesota Sentencing Guidelines
contain a “single, rational goal,” see id., to establish rational and consistent sentencing
standards that reduce sentencing disparity based on an offender’s offense date. Minn. Sent.
Guidelines (2013) 1(A); 2. see also Binkholder, 909 F.3d at 218-19 (noting such a scheme
satisfies rational basis review because it puts all defendants in the same position).
Petitioner’s second argument therefore fails as well.
III.

CERTIFICATE OF APPEALABILITY
Pursuant to Rule 11 of the Rules Governing § 2254 cases, the Court “must issue or

deny a certificate of appealability when it enters a final order adverse to the applicant.”
Federal district courts may not grant a certificate of appealability unless the prisoner “has
made a substantial showing of the denial of a constitutional right.” 28 U.S.C. § 2253(c)(2).
To meet this standard, the petitioner must show “that the issues are debatable among
reasonable jurists, a court could resolve the issues differently, or the issues deserve further
proceedings.” Flieger v. Delo, 16 F.3d 878, 882-83 (8th Cir. 1994). For purposes of appeal
18

CASE 0:18-cv-03099-PJS-TNL Document 17 Filed 05/30/19 Page 19 of 20

under 28 U.S.C. § 2253, this Court concludes that it is unlikely that reasonable jurists
would find the question of whether to dismiss Petitioner’s petition debatable, or that some
other court would decide this petition differently. This Court therefore recommends that a
certificate of appealability not issue.
In addition, this Court recommends that no evidentiary hearing be held. The dispute
can be resolved on the basis of the record and legal arguments submitted by the parties.
See Wallace v. Lockhart, 701 F.2d 719, 729-30 (8th Cir. 1983).
IV.

RECOMMENDATION
Based on the foregoing, and all the files, records and proceedings herein, IT IS

HEREBY RECOMMENDED that:
1. The Petition under 28 U.S.C. § 2254 for Writ of Habeas Corpus by a Person in State
Custody, (ECF No. 1), be DENIED and DISMISSED WITH PREJUDICE.
2. A certificate of appealability not issue.

Date: May 29, 2019

s/ Tony N. Leung
Tony N. Leung
United States Magistrate Judge
District of Minnesota
McDonald v. Titus
Case No. 18-cv-3099 (PJS/TNL)

NOTICE
Filing Objections: This Report and Recommendation is not an order or judgment of the
District Court and is therefore not appealable directly to the Eighth Circuit Court of
Appeals.
Under Local Rule 72.2(b)(1), “a party may file and serve specific written objections to a
magistrate judge’s proposed finding and recommendations within 14 days after being
19

CASE 0:18-cv-03099-PJS-TNL Document 17 Filed 05/30/19 Page 20 of 20

served a copy” of the Report and Recommendation. A party may respond to those
objections within 14 days after being served a copy of the objections. LR 72.2(b)(2). All
objections and responses must comply with the word or line limits set for in LR 72.2(c).

20

Appendix D

CASE 0:18-cv-03099 Document 1-3 Filed 11/05/18 Page 1 of 8

This opinion will be unpublished and
may not be cited except as provided by
Minn. Stat. § 480A.08, subd. 3 (2016).
STATE OF MINNESOTA
IN COURT OF APPEALS
A18-0064
Marlow Shelton McDonald, petitioner,
Appellant,
vs.
State of Minnesota,
Respondent.
Filed July 30, 2018
Affirmed
Halbrooks, Judge

Blue Earth County District Court
File No. 07-CR-14-1678
Zachary A. Longsdorf, Longsdorf Law Firm, PLC, Inver Grove Heights, Minnesota (for
appellant)
Lori Swanson, Attorney General, St. Paul, Minnesota; and
Patrick R. McDermott, Blue Earth County Attorney, Susan B. DeVos, Assistant County
Attorney, Mankato, Minnesota (for respondent
Considered and decided by Rodenberg, Presiding Judge; Halbrooks, Judge; and
Jesson, Judge.
UNPUBLISHED OPINION
HALBROOKS, Judge
Appellant challenges a postconviction court’s order amending his sentence under
the Minnesota Drug Sentencing Reform Act. We affirm.

CASE 0:18-cv-03099 Document 1-3 Filed 11/05/18 Page 2 of 8

FACTS
Appellant Marlow Shelton McDonald was arrested after selling approximately 12
grams of methamphetamine to a confidential informant in five separate controlled
purchases throughout April 2014. The state charged McDonald with the following: one
count of first-degree controlled-substance sale under Minn. Stat. § 152.021, subd. 1(1)
(2012); one count of second-degree controlled-substance possession under Minn. Stat.
§ 152.022, subd. 2(a)(1) (2012); two counts of first-degree assault for using deadly force
against a peace officer under Minn. Stat. § 609.221, subd. 2(a) (2012); one count of
unlawful possession of a firearm under Minn. Stat. § 624.713, subd. 1(2) (2012); and one
count of ineligible person in possession of a firearm (felon convicted of a crime of violence)
under Minn. Stat. § 609.165, subd. 1b(a) (2012). The state charged by amended complaint
one count of third-degree controlled-substance possession under Minn. Stat. § 152.023,
subd. 2(a)(1) (2012), and one count of fleeing a peace officer in a motor-vehicle under
Minn. Stat. § 609.487, subd. 3 (2012).
A jury found McDonald guilty of the first-degree controlled-substance crime,
second-degree controlled-substance crime, third-degree controlled-substance crime, both
unlawful-possession-of-a-firearm crimes, and the fleeing-a-peace-officer crime. The jury
acquitted McDonald of the first-degree-assault charges. The district court then held a
sentencing trial, and the jury found that McDonald had five or more prior felony
convictions and that his present crimes were committed as part of a pattern of criminal
conduct.

2

CASE 0:18-cv-03099 Document 1-3 Filed 11/05/18 Page 3 of 8

The district court committed McDonald to the commissioner of corrections for 316
months for the first-degree controlled-substance conviction,1 60 months for one of the
unlawful-possession-of-a-firearm convictions, and 57 months for the third-degree
controlled-substance conviction to be served concurrently, and 12 months and 1 day for
the fleeing-a-peace-officer conviction to be served consecutively with his other sentences.
McDonald appealed the district court’s judgment and sentence to this court, arguing
that (1) the district court committed evidentiary errors; (2) the evidence was insufficient to
support the jury’s finding that his present offenses were committed as part of a pattern of
criminal conduct; (3) the prosecutor engaged in misconduct; (4) the district court abused
its discretion by departing upward from the presumptive sentencing guidelines; (5) he was
denied his constitutional right to a speedy trial; (6) the district court was biased against
him; and (7) the state engaged in sentencing manipulation.

State v. McDonald,

No. A15 0268, 2016 WL 596222, at *1 (Minn. App. Feb. 16, 2016), review denied (Minn.
Apr. 19, 2016). We determined that McDonald was not entitled to relief on any of these
grounds and affirmed McDonald’s convictions and sentence. Id. at *1-9.
On July 17, 2017, McDonald petitioned the district court for postconviction relief,
arguing that he should be resentenced under the 2016 Minnesota Drug Sentencing Reform
Act (DSRA), 2016 Minn. Laws ch. 160, §§ 1-22, at 1-17, for his first-degree controlledsubstance crime because his sale of approximately 12 grams of methamphetamine would
only constitute a second-degree offense under Minn. Stat. § 152.022, subd. 1(1) (2016).

1

The sentence was a double upward departure based on the finding that McDonald
committed these crimes as part of a pattern of criminal conduct.
3

CASE 0:18-cv-03099 Document 1-3 Filed 11/05/18 Page 4 of 8

McDonald also argued that his sentence violated his due-process and equal-protection
rights, the district court committed evidentiary errors, the state engaged in sentencing
manipulation, and he received ineffective assistance of counsel. The state conceded that
McDonald should be resentenced under the DSRA but argued that his remaining claims
were Knaffla-barred. See State v. Knaffla, 309 Minn. 246, 252, 243 N.W.2d 737, 741
(1976) (providing that claims that were raised on direct appeal, or were known or should
have been known but were not raised on direct appeal, are procedurally barred).
On August 17, 2017, the postconviction court granted, in part, McDonald’s petition,
determining that McDonald was entitled to resentencing for his first-degree controlledsubstance crime but denied all other requested relief on the ground that the claims are
Knaffla-barred. The state asked the postconviction court to grant its request for a double
upward durational departure and to sentence McDonald to 250 months of incarceration.
McDonald requested a presumptive sentence of 125 months. On November 14, 2017, the
postconviction court amended McDonald’s 316-month sentence to a 250-month sentence.
McDonald appeals from both the August 17 and November 14 postconviction orders.
Because his appeal from the August 17 order is untimely, we accepted jurisdiction only
over the appeal of the November 14 order.
DECISION
The sole issue before us is whether the postconviction court’s refusal to characterize
his first-degree controlled-substance sale conviction as a second-degree controlledsubstance sale conviction based on the DSRA’s updated weight thresholds violates
McDonald’s constitutional right to equal protection because it treats offenders differently
4

CASE 0:18-cv-03099 Document 1-3 Filed 11/05/18 Page 5 of 8

based on the dates of their crimes and because the pre-DSRA sentencing guidelines
disparately impacted African Americans.
The U.S. Constitution’s Equal Protection Clause provides that “[n]o state shall . . .
deny to any person within its jurisdiction the equal protection of the laws.” U.S. Const.
amend. XIV, § 1. The Equal Protection Clause of the Minnesota Constitution provides that
“[n]o member of this state shall be disfranchised or deprived of any of the rights or
privileges secured to any citizen thereof, unless by the law of the land or the judgment of
his peers.” Minn. Const. art. I, § 2. To show that a statute violates an appellant’s equalprotection rights, the appellant bears the heavy burden of proving beyond a reasonable
doubt that the statute treats similarly situated persons differently. State v. Johnson, 813
N.W.2d 1, 10 (Minn. 2012). Under the similarly situated test, a state violates equal
protection if it “prescribes different punishments or different degrees of punishment for the
same conduct committed under the same circumstances by persons similarly situated.” Id.
at 12. The Equal Protection Clause “does not forbid classifications. It simply keeps
governmental decisionmakers from treating differently persons who are in all relevant
aspects alike.” Id. (quotation omitted). “We review the constitutionality of a statute
de novo.” Deegan v. State, 711 N.W.2d 89, 92 (Minn. 2006).
The DSRA became law on May 22, 2016, and changed Minnesota’s drugsentencing guidelines by reducing sentences for low-level, nonviolent drug offenders.
2016 Minn. Laws ch. 160, §§ 1-22, at 1-17. In State v. Kirby, the supreme court applied
the “amelioration doctrine,” which provides that an amended criminal statute applies to
crimes committed before its effective date if: (1) the legislature has made no statement
5

CASE 0:18-cv-03099 Document 1-3 Filed 11/05/18 Page 6 of 8

clearly establishing that it intends to abrogate the amelioration doctrine; (2) “the
amendment mitigate[s] punishment”; and (3) final judgment has not been entered as of the
effective date. 899 N.W.2d 485, 490 (Minn. 2017). The supreme court held that the
amelioration doctrine applies to section 18 of the DSRA, which amended the sentencing
grid for drug offenses and became effective on May 23, 2016. Id.; see also 2016 Minn.
Laws ch. 160, § 18, at 15-16; Minn. Sent. Guidelines 4.C (2016).
In State v. Otto, the supreme court clarified that the DSRA amendments to the
weight requirements for drug offenses do not apply to crimes that were committed before
August 1, 2016. 899 N.W.2d 501, 503-04 (Minn. 2017). The supreme court reasoned that
because the DSRA states that the weight requirements for first-, second-, and third-degree
drug sale became “effective August 1, 2016, and appl[y] to crimes committed on or after
that date,” the legislature’s intent was “crystal clear: to abrogate the amelioration doctrine.”
Id. (citing 2016 Minn. Laws ch. 160, §§ 4-5, at 2-6). Therefore, under Otto, a district court
cannot amend the degree of an offender’s drug conviction based on the DSRA’s updated
weight requirements. Id.
In resentencing McDonald under the DSRA, the postconviction court determined
that the presumptive sentence was 125 months of incarceration. But the postconviction
court doubled the presumptive sentence based on the jury’s determination that McDonald
is a career offender. See Minn. Stat. § 609.1095, subd. 4 (2012) (providing that a district
court “may impose an aggravated durational departure from the presumptive sentence up
to the statutory maximum sentence if the factfinder determines that the offender has five
or more prior felony convictions and that the present offense is a felony that was committed
6

CASE 0:18-cv-03099 Document 1-3 Filed 11/05/18 Page 7 of 8

as part of a pattern of criminal conduct”). The postconviction court correctly applied the
DSRA’s updated sentencing grid to McDonald’s first-degree controlled-substance sale
conviction, see Kirby, 899 N.W.2d at 487, without applying the DSRA’s updated weight
thresholds to amend the degree of McDonald’s conviction, see Otto, 899 N.W.2d at 503.
McDonald argues that the postconviction court’s refusal to apply the DSRA’s
weight thresholds to persons convicted before August 1, 2016, violates equal-protection
guarantees because he received a more serious sentence than those who committed the
same conduct after August 1, 2016. We must first consider whether McDonald is being
treated differently than others similarly situated who committed the same conduct under
the same circumstances. Johnson, 813 N.W.2d at 11. An offender who violates the 2012
version of the controlled-substance statute is not “in all relevant respects alike” to an
offender who violates a 2016 version of the controlled-substance statute. A 2012 offender
committed his crime at a different time than a 2016 offender and violated a different version
of the statute. Cf. Minn. Stat. § 152.022, subd. 1(2) (2016); Minn. Stat. § 152.021, subd.
1(1) (2012).
McDonald next contends “that the racial disparity in drug case sentencing violates
his right to equal protection.” To show that a statute violates the Equal Protection Clause
based on race, an appellant must show “that the statute classifies individuals on the basis
of some suspect trait.” State v. Frazier, 649 N.W.2d 828, 832 (Minn. 2002). If the statute
itself does not classify on the basis of race, an appellant must demonstrate that the statute
creates a racial classification in practice. Id.

7

CASE 0:18-cv-03099 Document 1-3 Filed 11/05/18 Page 8 of 8

McDonald does not argue that the legislature’s refusal to apply the DSRA weight
thresholds to acts committed before August 1, 2016, classifies individuals on the basis of
a suspect trait. Instead, he argues that the statute creates a racial classification in practice.
McDonald cites literature that states there is racial disparity between African American and
white offenders for arrest and imprisonment rates related to drug crimes. Although
McDonald discusses overall disparity rates for drug crimes, he has not demonstrated how
the legislature’s decision not to apply the DRSA’s weight thresholds retroactively causes
those disparities, and therefore he has not demonstrated that the DSRA creates a racial
classification in practice.
The postconviction court did not abuse its discretion in amending McDonald’s
sentence.
Affirmed.

8

Appendix E

October 24, 2018

Appendix F

28 U.S. Code § 2254 - State custody; remedies
in Federal courts
(a) The Supreme Court, a Justice thereof, a circuit judge, or a district court shall
entertain an application for a writ of habeas corpus in behalf of a person in custody
pursuant to the judgment of a State court only on the ground that he is in custody
in violation of the Constitution or laws or treaties of the United States.
(b)
(1) An application for a writ of habeas corpus on behalf of a person in custody
pursuant to the judgment of a State court shall not be granted unless it appears
that—
(A) the applicant has exhausted the remedies available in the courts of the State; or
(B)
(i) there is an absence of available State corrective process; or
(ii) circumstances exist that render such process ineffective to protect the rights of
the applicant.
(2) An application for a writ of habeas corpus may be denied on the merits,
notwithstanding the failure of the applicant to exhaust the remedies available in
the courts of the State.
(3) A State shall not be deemed to have waived the exhaustion requirement or be
estopped from reliance upon the requirement unless the State, through counsel,
expressly waives the requirement.

1

(c) An applicant shall not be deemed to have exhausted the remedies available in
the courts of the State, within the meaning of this section, if he has the right under
the law of the State to raise, by any available procedure, the question presented.
(d) An application for a writ of habeas corpus on behalf of a person in custody
pursuant to the judgment of a State court shall not be granted with respect to any
claim that was adjudicated on the merits in State court proceedings unless the
adjudication of the claim—
(1) resulted in a decision that was contrary to, or involved an unreasonable
application of, clearly established Federal law, as determined by the Supreme Court
of the United States; or
(2) resulted in a decision that was based on an unreasonable determination of the
facts in light of the evidence presented in the State court proceeding.
(e)
(1) In a proceeding instituted by an application for a writ of habeas corpus by a
person in custody pursuant to the judgment of a State court, a determination of a
factual issue made by a State court shall be presumed to be correct. The applicant
shall have the burden of rebutting the presumption of correctness by clear and
convincing evidence.
(2) If the applicant has failed to develop the factual basis of a claim in State court
proceedings, the court shall not hold an evidentiary hearing on the claim unless the
applicant shows that—
(A) the claim relies on—

2

(i) a new rule of constitutional law, made retroactive to cases on collateral review by
the Supreme Court, that was previously unavailable; or
(ii) a factual predicate that could not have been previously discovered through the
exercise of due diligence; and
(B) the facts underlying the claim would be sufficient to establish by clear and
convincing evidence that but for constitutional error, no reasonable factfinder would
have found the applicant guilty of the underlying offense.
(f) If the applicant challenges the sufficiency of the evidence adduced in such State
court proceeding to support the State court’s determination of a factual issue made
therein, the applicant, if able, shall produce that part of the record pertinent to a
determination of the sufficiency of the evidence to support such determination. If
the applicant, because of indigency or other reason is unable to produce such part of
the record, then the State shall produce such part of the record and the Federal
court shall direct the State to do so by order directed to an appropriate State
official. If the State cannot provide such pertinent part of the record, then the court
shall determine under the existing facts and circumstances what weight shall be
given to the State court’s factual determination.
(g) A copy of the official records of the State court, duly certified by the clerk of such
court to be a true and correct copy of a finding, judicial opinion, or other reliable
written indicia showing such a factual determination by the State court shall be
admissible in the Federal court proceeding.

3

(h) Except as provided in section 408 of the Controlled Substances Act, in all
proceedings brought under this section, and any subsequent proceedings on review,
the court may appoint counsel for an applicant who is or becomes financially unable
to afford counsel, except as provided by a rule promulgated by the Supreme Court
pursuant to statutory authority. Appointment of counsel under this section shall be
governed by section 3006A of title 18.
(i) The ineffectiveness or incompetence of counsel during Federal or State collateral
post-conviction proceedings shall not be a ground for relief in a proceeding arising
under section 2254.

4

